No.
INTHE

&upreme ~ourt of tbe linfteb &tatts
Cony WILLIAM Cox,
Petitioner,
v.
DON WILSON,

Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
7,783 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

Colin Casey aogan
Wilson-Epes Printing Co., Inc.

